                         U.S. COMMODITY FUTURES TRADING COMMISSION
                                               Three Lafayette Centre 

                                    1155 21st Street, NW, Washington , DC 20581 

                                            Telephone: (202) 418-5110 

                                             Facsimile: (202) 418-5522 




   Office of the 

Inspector General 



                                          MEMORANDUM

      TO:             Gary Gensler, Chairman

      FROM:           A. Roy Lavik, Inspector GeneraO         K£
      DATE:           January 28, 2013

      SUBJECT:        Transmittal of Audit Report


            This memorandum tra11smits the Office of the Inspector General ' s final report, Audit on
    the Impact ofthe Freedom ofInformation Act Exemption Related to Protecting the Identity of
    Whistleblowers in Fiscal Years 2012 and 2011 , OIG-AU-13-01. This audit was conducted to
    address a requirement in the Dodd Frank Wall Street Reform and Consumer Protection Act for
    the l11spector General to conduct a study:

              (aa) on whether the exemption under section 552(b)(3) of title 5, United States Code
                   (known as the Freedom oflnformation Act) established in paragraph (2)(A) aids
                   whistleblowers in disclosing information to the Commission;
              (bb)on what impact the exemption has had on the public's ability to access information
                   about the Commission' s regulation of commodity futures and option markets; and
              (cc) to make any recommendations on whether the Commission should continue to use
                   the exemption.

    On behalf of the Office of the Inspector General, Toski & Company, conducted this audit and
    issued the attached report. The OIG concurs with the findings in this report. In finalizing this
    report, we solicited management' s comments to our draft report and have included those
    comments in their entirety as Appendix A.

    The audit presented two recommendations for improving the operations of this program area.
    Specifically, we recommend that:

          1. 	 written policies and procedures be established within the FOIA office and CFTC
               Whistleblower office for interacting with the FOIA Office if a FOIA request involves a
               whistleblower.
          2. 	 the Consumer Protection webpage within the CFTC website and CFTC Form TCR be
               revised to highlight 7 U.S.C. Section 26(h) regarding the protection for whistleblowers.
In the next 30 days, please provide me with your management decisions describing the specific
actions that you will take, including timeframes, to implement each recommendation.

As a result of OIG interviews with current w histleblowers the audit concluded that the
protections afforded to whi stleblowers by 7 U.S.C. Section 26(h) (2) have aided whi stleblowers
in disclosing information to the Comm ission. Furthermore, it is our recommendation that the
Commission continue to use 7 U.S.C. Section 26(h) (2) in conjunction with Exemption 3 as a
protection to whistleblowers in the future.

Thank you and your staff for the assistance extended to my team during this audit.




                                                2

U.S. COMMODITY FUTURES TRADING COMMISSION



Performance Audit Report on the Impact of the Freedom of Information Act 

     Exemption Related to Protecting the Identity of Whistle blowers in 

                      Fiscal Years 2012 and 2011 

                                                                                         300 Essjar Road, S1c. I I 5
                                                                                    Williams,.illc. New York I-122 I
                                                                                                  T: 7 I 6.6 3-1.0700
                                                                                                 F: 7 I 6.6 3-1.076-1
                                                                                                 W: ToskiC PA.com




January 16, 201 3


U.S. Commodity Futures Trading Commission
Offi ce of the Inspector General
Washington, D.C.

We are pleased to present our fi ndings in regard to the performance audit procedures that we
performed for the fi scal years 20 12 and 20 I I. The report includes an introduction, a description
of the aud it objective, audit proced ures, findings/comments/recommendations and a conclusion.

Introduction:

The U.S. Commod ity Futures Trading Commi ssion (CFTC) was created by the U.S. Congress in
1974 as an independent agency with a mandate to regulate commod ity futures and option
markets in the United States. CFTC consists of five commissioners appointed by the President,
with the advice and consent of the U.S. Senate, to serve staggered five year terms. One of the
commissioners is des ignated by the Pres ident to serve as the Chairman of CFTC. The Dodd­
Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act) was signed into law
on July 2 1, 20 I 0 1• The Dodd-Frank Act established new mandates for the Com modity Futures
Trad ing Commission. Among the mandates was the establ ishment of a Whistleblower Program
Office and Consumer Outreach Progra m Office

Audit Objective:

Toski & Co., P.C. was engaged by the CFTC on behalf of the Inspector General to conduct a
performance audit to comply with Section 748 of the Dodd-Frank Act. Section 748 added to the
Commod ity Exchange Act new section 23, 7 U.S.C. 26, establishing com modity whistleblower
incentives and protection, and new subsection 23(h)(2)(C)(iii)(l). It requires the Inspector
General of the Commi ss ion to conduct a "Study on Impact of FO IA Exemption on Commodity
Futures Trading Commi ssion". The relevant sections of the Act are as follows:

       (I) 	   Study- The Inspector General of the Commi ssion shall conduct a study ­
           (aa) on whether the Exempti on under 552(b )(3) of title 5, United States Code (known as
           the Freedom of Information Act) established in paragraph (2)(A) of the Dodd-Frank Act
           aids whistleblowers in di sclosing information to the Commi ssion;
           (bb) on what impact the exemption has had on the public's ability to access information
           about the Commission' s regulation of commodity futures and options markets; and
           (cc) to make any recommendations on whether the Commission should continue to use
           the exemption.


1
    Pub. L. 111 -203. 124 Stat. 1376


                                                  2

Audit Objective (Continued):


The Freedom of Information Act allows for the application of nine (9) exemptions that may be
cited by an agency for withholding information on a FOIA request. The specific subject matter
of the engagement was Exemption 3. This Exemption incorporates the disclosure prohibitions
that are contained in various other Federal statutes. The engagement included a review of the
law indicated in 7 U.S.C. Section 26(h)(2) which provides confidentiality to whistleblowers and
a determination as to whether the confidentiality provision came into play on any of the FOIA
requests that fell under Exemption 3.

The objective of the performance audit was to assess whether the Exemption under Section
552(b)(3) of title 5, USC (known as the Freedom of Information Act) established in Section 748
of the Dodd-Frank Act aids whistleblowers in disclosing information to the Commission. Our
intention was to examine the Commission's disposition of requests made under FOIA and the
CFTC's utilization of Exemption 3. Our audit set out to include the examination of records and
reports retained by the Commission supporting the FOIA requests received for the fiscal years
ending September 30, 2012 and 2011. We also intended to interview whistleblowers to obtain
direct feedback in regard to whether 7 U.S.C. Section 26(h)(2), which provides confidentiality to
whistleblowers, aided them in disclosing information to CFTC.

The objective also included a review of the application of the requirements for Exemption 3 for
FOIA requests. This included a review of the guidance indicated in 7 U.S.C. Section 26(h)(2),
which provides confidentiality to whistleblowers, and its relevance to the FOIA requests for
which Exemption 3 was utilized. We also sought to verify the aggregate totals for all Exemption
categories as reported within the CFTC FOIA Annual Reports for FY12 and FY11, which
included reconciling the Exemption totals to detailed source reports. Each Fiscal Year the CFTC
is required to prepare a report of FOIA related activities which serves as a basic document for the
public on CFTC FOIA activities including total of Exemptions applied to FOIA requests
received at the CFTC. This document is known as the CFTC FOIA Annual Report.

Our performance audit was conducted in accordance with auditing standards generally accepted
in the United States of America and conformed to the Government Accountability Office and
Government Auditing Standards prescribed by the Comptroller General of the United States.

Audit Procedures:

The following procedures were conducted as part ofthe performance audit:

Internal Control

The Auditor conducted interviews to obtain an understanding of the internal control system
sufficient to plan the audit and establish a risk level and scope. This involved interviewing a
number of CFTC personnel and examining documentation to support established processes. The
internal controls observed and tested included procedures related to receiving, logging, tracking,
researching, timeliness, appeals and fulfilling or denying FOIA requests. We also addressed the
Commission's standards related to utilization and substantiation of Exemptions. In addition to a


                                                3

Audit Procedures (Continued):

number of meetings with the Contracting Officer's Representative from the Office of the
Inspector General the following interviews were conducted:

      • 	 Paralegal Specialist with the CFTC' s Office of the General Counsel - Discussed the
          process for receiving an initial FOIA request. Requests are received via mail and e-mail.
          The items received in the mail are sent directly to the CFTC mail room and they are
          delivered to the Office of the General Counsel. The mail is then time-stamped and
          identified as a FOIA request in the Office of the General Counsel. The request is entered
          into the FOIA software application, which is a database management tool utilized by the
          CFTC. The email receipts are sent directly to a FOIA submission mailbox at CFTC.gov,
          which is only accessible by certain Office of the General Counsel staff who work within
          the FOIA program. The requests received via e-mail are automatically entered into the
          FOIA database.

      • 	 Staff Attorney with the CFTC's Office of the General Counsel- Discussed the process
          for incoming FOIA requests, which involves logging the request in the FOIA software
          system. The cases are assigned to staff attorneys or paralegal specialists and they are
          reviewed for completeness. If appropriate, the division or program office is then
          contacted to determine if the specific requested information is available. Then the
          reviewers examine the information and determine if any Exemptions apply. The CFTC
          may issue a full release, partial denial or full denial of responsive documents. CFTC
          FOIA regulations call for a turnaround of 20 business days to process a case from receipt
          date to response date2 • We did not examine the turnaround time for processing a case.

      • 	 Deputy General Counsel for Intergovernmental Affairs - An appeal is routed in the same
          manner as an original FOIA request. The Senior Assistant to the General Counsel
          assigns the appeal to a member of the Intergovernmental Affairs team. The appeal is
          reviewed, any necessary legal research is completed and a response letter is drafted. The
          appeals are usually the result of legal issues relating to Exemptions. During the period of
          review the Deputy and Acting Deputy did not encounter any appeals known to be related
          to whistleblowers over the course of the period of review.

      • 	 Counsel with the Office of the General Counsel - The Auditor had several discussions
          with the individual who serves as FOIA Counsel. She decides the assignment of the
          initial review of all FOIA cases. It was confirmed that she determines how FOIA
          requests are assigned to staff for record collection and initial review and she conducts the
          final review of all FOIA requests before the response letter is sent to the requester. She
          stated that there has not been an Exemption 3 case logged into the FO lA software system
          that utilized 7 U.S.C. Section 26(h)(2) which relates to protecting the identity of a
          whistleblower.




2
    17 CFR 145.7(h)(3)


                                                   4

Audit Procedures (Continued):

   • 	 Director of the CFTC Whistleblower Office - Per discussion with the Director, the
       Auditor determined that the purpose of the CFTC Whistleblower Office is to accept
       whistleblower submissions and verify whether the required information is complete. It
       was noted that a potential whistleblower must first submit a Tip, Complaint or Referral
       Form (TCR) to the Whistleblower Office. The office serves as the agency point of
       contact, for both whistleblowers and Commission personnel, with respect to issues and
       questions regarding the whistleblower program. There is a Whistleblower A ward
       Determination Panel that decides whether the whistleblower is eligible to receive an
       award and determines the award percentage. The Director stated that he has never had
       any discussions with a whistleblower, or an attorney representing a whistleblower,
       regarding 7 U.S.C. Section 26(h)(2) which relates to protecting the identity of a
       whistleblower.

   • 	 Consumer Outreach Officer for the Office of the Executive Director- The Auditor had a
       discussion to understand the role that the Consumer Outreach Program plays in raising
       awareness of the existence of the Whistleblower Office. It was noted that there is a
       monthly newsletter to consumer groups and federal agencies which mentions the
       Whistleblower Office and there is a Consumer Protection webpage on the CFTC website
       which includes a link to the Whistleblower Program. The Consumer Outreach Officer
       has also designed a draft brochure for the Whistleblower Office.

Compliance

The Auditor reviewed the requirements for the application of Exemption 3 for FOIA requests
which included a review of the law indicated in 7 U.S.C. Section 26. Section 26(h)(2) provides
protection to whistleblowers. It states "Except as provided in subparagraphs (B) and (C), the
Commission, and any officer or employee of the Commission, shall not disclose any information,
including information provided by a whistleblower to the Commission, which could reasonably
be expected to reveal the identity of a whistleblower, except in accordance with the provisions of
section 552a of title 5, unless and until required to be disclosed to a defendant or respondent in
connection with a public proceeding instituted by the Commission or any entity described in
subparagraph (C)."

We identified FOIA requests in Fiscal Year 2012 and 2011 for which Exemption 3 was cited as a
reason for partial or full denial. We did not find any requests that had been denied due to 7
U.S.C. Section 26(h)(2), protection to whistleblowers. Therefore it was not necessary to
interview anyone or to review documentation. It was a narrow focus to determine if the
protection indicated in 7 U.S.C. Section 26(h)(2), which provides confidentiality to
whistleblowers, aided them in disclosing information to the CFTC.

The Director of the Whistleblower office was interviewed to gain an understanding of the
internal policies and procedures. The Auditor reviewed the CFTC Whistleblower Office Policies
and Procedures document and the Whistleblower Rules. In addition, we researched the CFTC
website, CFTC Consumer Protection webpage, which includes the whistleblower program and



                                                5

Audit Procedures (Continued):

reviewed Form TCR to determine if the provisions of 7 U.S.C. Section 26(h)(2) are highlighted
for the public to see. We discussed the legislative provision that prohibits the Commission from
disclosing any information, including information provided by a whistleblower to CFTC which
could reasonably be expected to reveal the identity of a whistleblower.

Substantive Testing

The Auditor reviewed the Commodity Futures Trading Commission FOIA Annual Reports for
the fiscal years ending September 30, 2012 (FY 12) and 20 I1 (FY II) and noted the following
statistics. For FY 12 there were 175 requests received and I70 processed during the fiscal year.
There were 64 partial grants/denials and II full denials based on exemptions. The Exemption 3
statute was relied upon 13 times. For FY 11 there were 168 requests received and I45 processed
during the fiscal year. There were 28 partial grants/denials and I7 full denials based on
Exemptions. The Exemption 3 statute was relied upon 16 times. As part of the audit procedures
we obtained the detailed reports from the FOIA Office that were utilized to accumulate the
Exemption totals in the FY 12 and FY 11 annual reports. The auditor reconciled the data to the
annual reports. There were two exceptions identified during the reconciliation but they were
determined not to be material in regard to the integrity of the reports.

We selected the entire population of FOIA requests for which Exemption 3 was cited as a reason
for partial or full denial. Based on our review of the FYI2 and FYII FOIA Annual Reports,
Exemption 3 was cited 13 and 16 times, respectively. Due the relatively low number within the
total population, we chose to test I 00% of the FOIA requests for which Exemption 3 was relied
upon rather than choose a sample.

For each instance where Exemption 3 was cited we reviewed the Exemption descriptions to
determine if any cases dealt with whistleblowers. It was determined that all of the denials
involved 7 U.S.C. 12 which prohibits the disclosure of data and information that would
separately disclose the business transaction of any person and trade secrets or names of
customers gathered in the course of CFTC investigations under the Commodity Exchange Act.
There were no denials that involved 7 U.S.C. Section 26(h)(2) which provides confidentiality to
whistleblowers.

The Office of the Inspector General obtained a list of all whistleblowers that have come forth
during FY 12 and FY 11. It should be noted that each whistleblower had received an
identification number. There was no information on the list that provided the identity of the
individuals or that could reasonably be expected to reveal the identity of a whistleblower, per
Dodd-Frank Section 748(h)(2)(A). The list contained a total of 58 whistleblower TCR Forms.
The Auditor chose a statistical sample of 20 selections to interview, which was based on a
confidence level of 95% and a confidence interval of 18. For each selection, we conducted a
voluntary interview by telephone. The interviews were conducted by an employee from the
Office of the Inspector General. In order to protect the whistleblower's identity the Auditor was
not present while the individuals were contacted.




                                               6

Audit Procedures (Continued):

The Auditor received the information to support the results of the survey from the Office of the
Inspector General employee who conducted the interviews. He signed an acknowledgement to
attest that the information provided to the Auditor was true and accurate.

Based on the responses received, we assessed whether the guidance indicated in 7 U.S.C. Section
26(h)(2), which provides confidentiality to whistleblowers, aided them in disclosing information
to the CFTC.

Findings/Comments/Recommendations:

Based on the results of our performance audit procedures we offer the following findings,
comments and recommendations in regard to the existing process:

   • 	 Policies and Procedures- There are no written policies and procedures within the FOIA
       Office nor does the CFTC Whistleblower Office have written policies and procedures for
       interacting with the FOIA Office if a FOIA request involves a whistleblower.

       Recommendation: We recommend that written policies and procedures be established
       and they should include a protocol to ensure that the confidentiality of the whistleblower
       remains intact.

   • 	 FOIA Office- The Auditor met with personnel from the FOIA Office and reviewed all
       29 instances where Exemption 3 was used during FY12 and FYI I. It was determined
       that all of the denials involved 7 U.S.C. 12, which prohibits the disclosure of data and
       information that would separately disclose the business transaction of any person and
       trade secrets or names of customers gathered in the course of CFTC investigations under
       the Commodity Exchange Act. There were no denials that involved 7 U.S.C. Section
       26(h)(2) which provides confidentiality to whistleblowers.

   • 	 CFTC Website - The CFTC website has a Consumer Protection webpage where
       information about the Whistleblower Program can be found. Under the Resources
       section of the Whistleblower Program information, 7 U.S.C. Section 26 - Commodity
       Whistleblower Incentives and Protection is available for download, however, there is no
       specific focus on Section 26(h) regarding the protection for whistleblowers. We also
       reviewed metrics related to the volume of visitors to the CFTC website and the
       whistleblower webpage. During calendar 2012, it was noted that the whistleblower
       portion of the CFTC website experienced 17,716 visitors. However, it should be noted
       that confidential protection identity offered to whistleblowers is not apparent to the
       webpage viewer.

       In addition, Form TCR makes no mention of 7 U.S.C. Section 26(h) and does not
       highlight CFTC's protection ofwhistleblowers in any way.




                                               7

Findings/Comments/Recommendations (Continued):

      Recommendation: The Consumer Protection webpage within the CFTC website and
      Form TCR should be revised to highlight 7 U.S.C. Section 26(h) regarding the protection
      for whistleblowers. As reviewed, it would seem that the volume of visitors seem to
      justify the availability of whistleblower information. Accordingly, the protections
      afforded potential whistleblowers should be readily available.

   • 	 Whistleblower Office - As a result of the feedback received from the whistleblower
       survey, and the study carried out on behalf of the Inspector General of the Commission it
       was determined that:

      • 	 (aa) The protections afforded by 7 U.S.C. Section 26(h)(2), appear to positively aid
          whistleblowers in disclosing information to the CFTC. Our testing showed that a
          total of seventeen of the twenty whistleblowers that were contacted stated that they
          were aware of the legislative provision that prohibits the Commission from disclosing
          any information, including information provided by a whistleblower to CFTC which
          could reasonable be expected to reveal the identity of a whistleblower. Of these
          seventeen, twelve indicated that this protection positively impacted their decision as a
          whistleblower. The whistleblowers that were interviewed were asked to what extent
          the confidentiality provision aided them in disclosing information to CFTC. The
          responses were as follows:

              o	   8 - A great extent
              o	   1 - Some to a great extent
              o	   2 - Some extent
              o	   1 - Little to some extent
              o	   5 -No extent
              o	   3 -Not applicable

      • 	 (bb) 7 U.S.C. Section 26(h)(2) which provides for whistleblower confidentiality was
          not cited in conjunction with Exemption 3 within the period of our examination.
          Therefore, we found no evidence that it has helped or hindered the public's ability to
          access information about the Commission's regulation of commodity futures and
          options markets.

      • 	 (cc) Based on the results of the performance audit and the whistleblower survey, the
          impact of 7 U .S.C. Section 26(h)(2) has been positive and there is strong evidence to
          support the Commission's continued usage of 7 U.S.C. Section 26(h)(2) in
          conjunction with Exemption 3.




                                                8

                    U.S. COMMODITY FUTURES TRADING COMMISSION
                                         Three Lafayette Centre 

                              1155 21st Street, NW, Washington, DC 20581 

                                      Telephone: (202) 418-5000 

                                       Facsimile: (202) 418-5521 

                                               www.cftc.gov



   Office of the
Inspector General




                                        OIG audit AU-13-01

     Performance Audit Report on the Impact ofthe Freedom ofInformation Act Exemption Related
     to Protecting the Identity ofWhistleblowers in Fiscal Years 2012 and 2011




                                           APPENDIX A
                            MANAGEMENT'S RESPONSE LETTER
                           U.S. COMMODITY FUTURES TRADING COMMISSION
                                       Three Lafayette Centre
                                        1155 21st Street, NW
                                       Washington, DC 20581




Response Letter                                                                January 25,2013

Roy A. Lavik, Inspector General
U.S. Cominodity Futures
 Trading Commission
Three Lafayette Centre
1155 21st Street, NW
Washington, DC 20581

                  Re: OIG AU 1301

Dear Mr. Lavik:

        Thank you for the opportunity to respond to the audit report, entitled "Performance Audit
Report on the Impact ofthe Freedom ofInfonnation Act Exemption Relate4 to Protecting the
Identity ofWhistleblowers in Fiscal Years 2012 and 2011." Based on our review ofthe audit,
the Commodity Futures Trading Commission ("Commission") offers the following responses:

       Recommendation 1

       We recommend that written policies andprocedures be established and they should
include a protocol to ensure that the confidentiality ofthe whistleblower remains intact.
       Response

      The FOIA office agrees with the recommendation to prepare written materials
documenting the office's policies and procedures. These materials will include the protocol the
agency uses to ensure that whistleblower confidentiality is protected.

       Recommendation 2

       The Consumer Protection webpage within the CFI'C website and Form TCR should be
revised to highlight 7 U.S. C. Section 26(h) regarding the protectionfor whistleblowers. As
reviewed, it would seem that the volume ofvisitors seem to justify the availability of
whistleblower information. Accordingly, the protections affordedpotential whistleblowers
should be readily available.
       Response

       Information about the confidentiality protections afforded to whistleblowers under
7 U.S.C. § 26(h)(2) and 17 C.F.R. § 165.4 is available on the Commission's "Whistlel;»lower
'Program'' webpage because copies ofSection23 ofthe Con11nodity Exchange Act, the
 Whistleblower Rules, and frequently asked questions about the program are linked on the page.
 However, given the web traffic cited in the audit report, the Whistleblower Office agrees to
 display the information more prmninently on the page. The Whistleblower Office also agrees to
 include such information on the Form, provided that the Office of Management and Budget
 approves such a change to the Form.

        On behalf of the Commission, thank you once again for the opportunity to respond.
Please let me know if\ve can provide any further infmmation or assistance.


                                                   Sincerely yours,


                                                    ~ro--
                                                   Eric Juzenas
                                                   Chief Operating Officer and
                                                   Senior Counsel to the Chainnan
